IN THE
Supreme Court of the United States

EDUVIGES AYALA-BELLO & WALTER VELEZ-GONZALEZ,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Kara Hartzler, appointed to represent the petitioner under the Criminal
Justice Act, certify that on October 1, 2021, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed Jn Forma Pauperis in the above-
captioned case were served by first-class mail, postage prepaid, to respondent’s
counsel. I further certify that all parties required to be served have been served.
Service was addressed as follows:

Brian Fletcher

Acting Solicitor General of the United States
Room 5614

Department of Justice

950 Pennsylvania Avenue, N.W.

Washington, D.C. 20530-0001 Kei

KARA HARTZLER

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467

 

Attorneys for Petitioner
